                              SENSITIVE BUT UNCLASSIFIED 





                   UNITED STATES DEPARTMENT OF STATE 

               AND THE BROADCASTING BOARD OF GOVERNORS

                               OFFICE OF INSPECTOR GENERAL


AUD-SI-13-32                                     Office of Audits                                         June 2013




        Audit of Department of State 

              Compliance With 

 Physical and Procedural Security Standards 

    at Selected High Threat Level Posts 





IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                              SENSITIVE BUT UNCLASSIFIED 

                           SENSITIVE BUT UNCLASSIFIED





                                                          United States Department of State
                                                          and the Broadcasting Board of Governors

                                                          Office of Inspector General




                                        PREFACE


     This report was prepared by the Office ofinspcctor General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses ofthe office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

    1 express my appreciation to all of those who contributed to the preparation of this report.




                                            Harold W. Geisel
                                            Deputy Inspector General




                           SENSITIVE BUT UNCLASSIFIED

                        SENSITIVE BUT UNCLASSIFIED



Acronyms
AF         Bureau of African Affairs
CAC        compound access control
DS         Bureau of Diplomatic Security
FAH        Foreign Affairs Handbook
FAM        Foreign Affairs Manual
FE/BR      forced-entry and ballistic-resistant
GAO        Government Accountability Office
NCC        New Consulate Compound
NEC        New Embassy Compound
NSDD-38    National Security Decision Directive 38
OBO        Bureau of Overseas Buildings Operations
OIG        Office of Inspector General
OSPB       Overseas Security Policy Board
RSO        Regional Security Officer
USAID      United States Agency for International Development




                        SENSITIVE BUT UNCLASSIFIED

                                           SENSITIVE BUT UNCLASSIFIED



                                                       Table of Contents 

Section                                                                                                                                 Page


Executive Summary .........................................................................................................................1 


Background…. .................................................................................................................................4 


Objective……. .................................................................................................................................9 


Audit Results ................................................................................................................................10 

       Finding A. Common Security Deficiencies Were Found at Selected Posts. ....................10 

       Finding B. Increased Personnel Levels Presented Security Challenges ...........................30 


List of Recommendations ..............................................................................................................36 


Appendices 

      A. Scope and Methodology...............................................................................................39 

      B. Physical Security Criteria.............................................................................................43

      C. Outline for Action Reports ...........................................................................................52 

      D. Statuses of Recommendations for Outline for Action Reports ....................................97 

      E. 	Bureau of Diplomatic Security Comments to the Draft Report .................................102 

      F. Bureau of Overseas Buildings Operations Comments to the Draft Report ................110
          [Redacted] (b) (5), [Redacted] (b) (7)(F)
      G.                                            Comments to the Draft Report.........................................118 


Major Contributors to This Report ..............................................................................................119 





                                           SENSITIVE BUT UNCLASSIFIED

                                    SENSITIVE BUT UNCLASSIFIED


                                         (U) Executive Summary
         (U) On August 7, 1998, the U.S. embassies in Nairobi, Kenya, and in Dar es Salaam,
Tanzania, were attacked, and 12 Americans and 40 Kenyan and Tanzanian employees of the U.S.
Foreign Service were killed. The Department of State (Department) Accountability Review
Boards that were convened by the Secretary of State (Secretary) to examine the circumstances
surrounding the attacks found that the U.S. Government had devoted inadequate resources to
security at U.S. diplomatic facilities and had placed too low a priority on security concerns. As a
result, the Department implemented a program to replace deficient buildings with new, safe,
secure, and functional facilities. However, the conditions confronting U.S. Government
personnel abroad are still fraught with security risks, as evidenced by the September 2012 attacks
on two compounds in Benghazi, Libya, that killed four Americans, including the American
Ambassador.

        (U) The Office of Inspector General (OIG) conducted this audit to determine to what
extent selected New Embassy Compounds (NEC) and New Consulate Compounds (NCC) at
overseas posts that have high threat levels complied with current physical security standards and
whether post management officials used available authorities to effectively implement the post
security program.

        (SBU) OIG conducted physical security compliance reviews to determine to what extent
the selected [Redacted] (b) (5), [Redacted] (b) (7)(F)

complied with current physical security standards. (The scope and methodology used for this
audit are shown in Appendix A, and physical security standards used to conduct the compliance
reviews are shown in Appendix B.) OIG provided the ambassadors and the consul general at the
selected posts with a post-specific “Outline for Action” report detailing selected deficiencies
found during the physical security compliance reviews.1 The ambassadors and the consul
general at the posts promptly took action to address or mitigate many of the deficiencies
reported. Of 38 recommendations that OIG made, 28 have been closed and 10 remain open.2
For the majority of recommendations that remain open, posts responded that plans are underway
to remedy the deficiencies. These reports, including the posts’ responses, are included in
Appendix C.

        (SBU) OIG found that selected posts were not always in compliance with current
physical security standards and that common physical and procedural security deficiencies
occurred among the posts reviewed.3 [Redacted] (b) (5), [Redacted] (b) (7)(F)




1
  (U) In the “Outline for Action” reports, OIG reported deficiencies that the posts could or should address in a timely 

manner. 

2
  (SBU) The “Outline for Action” reports in Appendix C note the statuses of recommendations at the time that the 

report was sent to the chief of mission. Several posts have closed recommendations since the reports were issued.

3
  (U) OIG defined common deficiencies as deficiencies found at two or more of the five posts reviewed. 


                                                 1
                                    SENSITIVE BUT UNCLASSIFIED
                                          SENSITIVE BUT UNCLASSIFIED


     [Redacted] (b) (5), [Redacted] (b) (7)(F)


                                                      Physical security deficiencies occurred for a
     variety of reasons, ranging from changes in physical security standards to design, construction,
     and maintenance issues, that, if exploited, could compromise the safety of post personnel and
     property.

            (SBU) OIG also found that the Chiefs of Mission [Redacted] (b) (5), [Redacted] (b) (7)(F)
             used their National Security Decision Directive 38 (NSDD-38) authority to increase post
     personnel levels in alignment with their mission strategic plans.5 [Redacted] (b) (5),
[Redacted] (b) (5), [Redacted] (b) (7)(F)                                             [Redacted] (b) (7)(F)




              (SBU) Department guidance states that NSDD-38 decisions should be part of a mission’s   [Redacted] (b) (5), [Redacted] (b) (7)(F)
     efforts to tie resources to the priorities outlined in the mission strategic plan.6
[Redacted] (b) (5), [Redacted] (b) (7)(F)




     4
      (U) As defined in the Foreign Affairs Handbook, 12 FAH-5, a hardline is “a system of barriers surrounding a 

    protected area which affords degrees of forced entry, ballistic resistant, or blast protection, or combinations of these 

    three.”

    5
      (U) Each U.S. mission is under the direction of a chief of mission, who is an ambassador or chargé d’affaires. The 

    chief of mission’s authority encompasses not only the personnel of the Department but also personnel of other U.S. 

    executive branch agencies (excluding those personnel under the command of a U.S. area military commander) that 

    have programs or activities in the country. 

    6
      (U) Department of State “Action Request and Guidance for Chief of Mission NSDD-38 Requests.” 

[Redacted] (b) (5), [Redacted] (b) (7)(F)



                                                       2
                                          SENSITIVE BUT UNCLASSIFIED
                                                                 SENSITIVE BUT UNCLASSIFIED


                                                                                                                                                   [Redacted] (b) (5), [Redacted] (b) (7)(F)
       (SBU) In this report, OIG made 24 recommendations addressed to DS, OBO,       , and the
Office of Management Policy, Rightsizing and Innovation, which were intended to improve the                                                   [Redacted] (b) (5), [Redacted] (b) (7)(F)

physical security posture of posts worldwide respective to each post’s threat level.
[Redacted] (b) (5), [Redacted] (b) (7)(F)
             to comply with physical security standards to providing post tenant agencies with
post-specific guidance on the National Security Decision Directive 38 process.

(U) Management Comments

       (U) In April 2013, OIG provided a draft of this report and requested comments from DS,
       [Redacted] (b) (5), [Redacted] (b) (7)(F)

OBO,     , and the Office of Management Policy, Rightsizing and Innovation. In addition, OIG
provided informational copies to the posts audited: [Redacted] (b) (5), [Redacted] (b) (7)(F)


        (U) DS, in its response (see Appendix E) to its 14 recommendations, concurred with three
recommendations but did not concur with 11 of the recommendations. DS stated that the
primary reason it did not concur with the recommendations was because it did not believe that
OIG’s random, non-statistical sampling of posts provided “sufficient justification for action by
RSOs worldwide.” Based on the response, OIG considers three recommendations resolved,
pending further action, and 11 recommendations unresolved because no action has been taken to
implement them. The unresolved recommendations can be closed when OIG reviews and
accepts documentation showing that DS has directed RSOs worldwide to assess and correct
identified physical and procedural security deficiencies presented in this report.

        (U) DS also provided additional comments not directly relating to the recommendations
pertaining to OIG’s audit findings and sampling methodology. These comments, along with
OIG’s responses, are synopsized at the end of Finding A.

        (U) OBO, in its response (see Appendix F) to its eight recommendations, concurred with
seven recommendations but did not concur with one recommendation (No. 12), stating that
action for that recommendation should be redirected to DS. OIG considers four
recommendations closed; three recommendations resolved, pending further action; and one
recommendation (No. 12) unresolved. OIG maintains that OBO is the lead action bureau for this
recommendation primarily because OBO is the primary point of contact for post requests
concerning maintenance. This recommendation can be closed when OIG reviews and accepts                                                          [Redacted] (b) (5), [Redacted] (b) (7)(F)

documentation showing that OBO has provided specific guidance to overseas posts
[Redacted] (b) (5), [Redacted] (b) (7)(F)
                     [Redacted] (b) (5), [Redacted] (b) (7)(F)
        (U)    , in its response (see Appendix G), stated that it “clears in draft” OIG’s report                     [Redacted] (b) (5), [Redacted] (b) (7)(F)

except for Recommendation 23, the one recommendation addressed to it.             suggested that the
Office of Management Policy, Rightsizing and Innovation be the action office for this
recommendation. OIG considers Recommendation 23 unresolved. OIG maintains that the lead
                                                                         [Redacted] (b) (5), [Redacted] (b) (7)(F)

action bureau for this recommendation is     , and the unresolved recommendation can be closed
      [Redacted] (b) (5), [Redacted] (b) (7)(F)

when      implements a policy that instructs posts on how to manage the personnel levels
required to meet mandated programs without compromising the security of post personnel.



                                                                              3
                                                                 SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

       (U) As of June 3, 2013, the Office of Management Policy, Rightsizing and Innovation
had not responded to the draft report. Therefore, Recommendation 24 is unresolved. The
unresolved recommendation can be closed when OIG reviews and accepts documentation
showing the Office of Management Policy, Rightsizing and Innovation has advised post
management officials to provide tenant agencies with post-specific guidance on the NSDD-38
process.

        (U) The bureaus’ comments have been considered and incorporated into the report as
appropriate, and the bureaus’ responses to the recommendations and OIG’s replies are presented
after each recommendation.

                                           (U) Background
       (U) The Accountability Review Boards that were convened following the 1998 attacks on
the U.S. embassies in Nairobi, Kenya, and in Dar es Salaam, Tanzania, concluded that the U.S.
Government had devoted inadequate resources to security against terrorist attacks at U.S.
diplomatic facilities and placed too low of a priority on security concerns. Specifically, Public
Law 106-113, Appendix G,8 states, “The result has been a failure to take adequate steps to
                                                                    [Redacted] (b) (5), [Redacted] (b) (7)(F)
prevent tragedies such as the bombings in Kenya and Tanzania.”

                                                                                 , the Department
implemented a program to replace deficient buildings with new, safe, secure, and functional
facilities. NECs and NCCs are Department projects “to design, construct, and move a US
mission from [its] current facility into a newly constructed facility.”9 Since 2000, the
Department has constructed 72 NECs and NCCs, and as of June 2013, the Department was
overseeing 16 NEC and NCC construction projects worldwide.

        (U) The presence of U.S. Government personnel abroad is important to ensure that our
nation’s interests are represented. However, the conditions confronting U.S. Government
personnel and missions abroad are still fraught with security concerns. Since the 1998 attacks
against the U.S. Embassies in Kenya and Tanzania, there have been approximately 40 attacks
aimed at U.S. embassies, consulates, or personnel. This number includes the 2002 assassination
of a United States Agency for International Development (USAID) director in Amman, Jordan,
by al-Qaida; the 2004 raid of Consulate General Jeddah (Saudi Arabia); and the 2012 attack on
the U.S. diplomatic post in Benghazi, Libya. Thus, it is imperative for U.S. diplomatic facilities
overseas to be as physically secure as possible to protect against further tragedies.




8
 (U) Pub. L. No. 106-113 (1999). 

9
 (U) Diplopedia <http://diplopedia.state.gov/index.php?title=New_Embassy_Compound>, accessed on Oct. 26, 

2011. 


                                              4
                                 SENSITIVE BUT UNCLASSIFIED
                                        SENSITIVE BUT UNCLASSIFIED



     (U) Legislation and Policies

              (U) Secure Embassy Construction and Counterterrorism Act

             (U) As a result of the 1998 embassy attacks and the subsequent findings of the related
     Accountability Review Boards, Congress passed the Secure Embassy Construction and
     Counterterrorism Act of 1999. This Act set forth two physical security standards for U.S.
     diplomatic facilities. The Act10 states that in selecting a site for any new U.S. diplomatic facility
     abroad, “the Secretary shall ensure that all United States Government personnel at the post
     (except those under the command of an area military commander) will be located on the site.”
     The Act further states, “Each newly acquired United States diplomatic facility shall be sited not
     less than 100 feet from the perimeter of the property on which the facility is to be situated.”

              (U) Overseas Security Policy Board

             (SBU) The Overseas Security Policy Board (OSPB) is a subgroup of the National
     Security Council. The OSPB is chaired by the Assistant Secretary of State for Diplomatic
     Security, and the Board’s membership consists of representatives from entities across the Federal
     Government, including USAID, the Defense Intelligence Agency, the Department of Justice, the
     National Security Agency, and the Peace Corps. The OSPB considers, develops, coordinates,
     and promotes policies, standards, and agreements on overseas security operations, programs, and
     projects that affect all U.S. Government agencies under the authority of a chief of mission.

            (SBU) The OSPB establishes physical security standards for overseas posts. Some
     standards correspond to the Security Environment Threat List, which DS produces annually.
     The Security Environment Threat List categorizes threats, such as terrorism, political violence,
     and crime, into four levels, depending on their impacts on American officials: critical (grave),
     high, medium, and low (minor).11 [Redacted] (b) (5), [Redacted] (b) (7)(F)

[Redacted] (b) (5), [Redacted] (b) (7)(F)




             (SBU) There are also OSPB standards that are not threat level specific and that apply to
     all posts. Examples of physical security standards are shown in Figure 1.


     10
      (U) Ibid.

     11
      (U) A post’s threat level is determined by the post in coordination with DS, the Department, and other 

    Government agencies. The latest Security Environment Threat List was issued in January 2013. 

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                     5
                                        SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


(U) Figure 1. Examples of Physical Security Standards




Source: U.S. Government Accountability Office.

         (U) Foreign Affairs Manual and Foreign Affairs Handbook

       (U) The Department implements physical security standards through the Foreign Affairs
Manual16 (FAM). The FAM assigns DS the responsibility to ensure that all new construction
and major renovation design plans for buildings occupied by U.S. Government personnel comply
with physical security standards.17 The FAM assigns OBO the responsibility for implementing
physical security standards into the Department’s building projects.18

        (SBU) The Department also incorporates physical security standards into the Foreign
Affairs Handbook (FAH) through the Physical Security Handbook (12 FAH 5) and the OSPB
Security Standards and Policy Handbook (12 FAH 6), both of which provide detailed guidance
regarding the general policies on physical security standards established in the FAM. The
Physical Security Handbook outlines the Department’s security concept, which uses tiers of
increasing defense to provide early detection of potential danger, to deter and delay hostile
action, and to allow time for local security forces to respond. Security standards for each of the
defense tiers are based upon the threat levels for “political violence,” which include “Terrorism,
War, and Civil Disturbance.”19




16
   (U) 12 FAM 300, “Physical Security Programs.”
17
   (U) 12 FAM 312.b, “Program Management Responsibilities.”
18
   (U) 12 FAM 312.c, “Program Management Responsibilities.”
19
   (SBU) Although this FAH section includes terrorism under “political violence,” specific physical security
standards are indexed only to the political violence threat level as established in the Security Environment Threat
List. When conducting physical security compliance reviews at post, OIG applied the higher of the political
violence or terrorism threat levels. For example, although some selected posts had a medium political violence
threat level, OIG used the physical security standards for a high political violence threat post because the selected
posts had a high terrorism threat level. DS and OBO have recommended revisions to the FAH that will provide for
using the higher threat level of the two categories when applying physical security standards.

                                                6
                                   SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED



(U) Bureau of Overseas Buildings Operations Building and Zoning Codes

        (SBU) The 2012 OBO Building Code and the 2012 OBO Zoning Code also contain
physical security criteria. The 2012 OBO Building Code includes criteria for new construction
of U.S. diplomatic mission buildings overseas. The criteria cover FE/BR protection, windows
and doors, courtyards, CAC structures and procedures, and safe havens. The 2012 OBO Zoning
Code includes criteria for anti-ram protection, clear zones, parking, and perimeter walls and
fences. OBO Building and Zoning codes are updated annually to incorporate, among other
things, changes in OSPB security standards.

(U) Department Bureaus With Physical Security Responsibilities

       (U) Bureau of Diplomatic Security

       (U) DS is the Department’s security arm. DS is responsible for providing a safe and
secure environment for the conduct of U.S. foreign policy. Every diplomatic mission in the
world operates under a security program designed and maintained by DS.

        (SBU) Office of Intelligence and Threat Analysis. The DS Office of Intelligence and
Threat Analysis is responsible for producing the Security Environment Threat List and for
assigning threat levels to posts that fall into the terrorism and political violence categories. In the
terrorism category, a post’s threat level is based on potential threat from a group with the
capability to recruit, plan, finance, and/or execute a local attack. In the political violence
category, a post’s threat level is based on potential threat from civil disorder, coups d’état, and
inter- or intra-state conflicts, to include feuds between significant gangs and/or clans.

        (SBU) Office of Physical Security Programs. The DS Office of Physical Security
Programs directs the development of OSPB security standards and Department policies and
procedures associated with physical security at U.S. missions. The Office is responsible for
overseeing the implementation of these programs abroad to ensure compliance with OSPB
security standards. Responsibilities of the Office’s Physical Security Division include the
following: (1) overseeing new construction and major renovation projects abroad and (2)
ensuring conformance with OSPB-approved security standards.

        (U) The Certification, Accreditation, and Transit Security Branch is responsible for
approving construction security plans and certifying projects to Congress or the Department.
The branch’s certification and accreditation teams are responsible for performing onsite physical
security inspections. The teams document their inspections, which note physical security
construction deficiencies or discrepancies relating to the project and provide corrective
recommendations.

        (U) The New Office Building Branch provides physical security oversight of OBO
project design and development for new office building initiatives. In concert with the
Certification, Accreditation, and Transit Security Branch, the New Office Building Branch is
responsible for ensuring new office building and major renovation designs meet mandated



                                            7
                               SENSITIVE BUT UNCLASSIFIED
                                       SENSITIVE BUT UNCLASSIFIED


      security requirements. In addition, the branch participates with OBO in final acceptance
      inspections of projects to ensure adherence to OSPB physical security standards.

              (U) Among other security responsibilities, the Project Coordination Branch conducts risk
      assessments of overseas facilities to rank their risk based on factors such as their threat level for
      terrorism and political violence, the host government’s counterterrorism capability, and the
      percentage of desk positions not collocated. This ranked data is used to help prioritize new
      construction and major physical security upgrades. [Redacted] (b) (5), [Redacted] (b) (7)(F)




              (SBU) Office of the Regional Directors. The Office of the Regional Directors oversees
      the work of over 700 RSOs at over 250 posts worldwide. The RSO serves as the personal
      advisor to the chief of mission on all security issues and coordinates all aspects of a mission’s
      security program. RSOs develop and implement security programs to protect Department
      employees from attacks.

              (U) Bureau of Overseas Buildings Operations

              (U) OBO’s mission is to provide secure, safe, functional, and well-maintained facilities
      for the conduct of U.S. diplomacy and the promotion of U.S. interests worldwide. OBO directs
      the Department’s worldwide overseas building program. In concert with other Department
      bureaus, U.S. Government agencies, and Congress, OBO sets worldwide priorities for the design,
      construction, acquisition, maintenance, use, and sale of real properties.

               (SBU) Office of Security Management. OBO’s Office of Security Management is
      responsible for overseeing and implementing security plans for constructing and renovating U.S.
      diplomatic facilities. The Office’s mission is to ensure that all appropriate physical, technical,
      and procedural security standards are incorporated into every OBO project design for diplomatic
      facilities and to manage construction security programs that prevent physical and technical
      penetration and safeguard against mob violence and terrorist attacks. The Office is the primary
      OBO liaison with DS and works with DS during certification and accreditation inspections. The
      Office’s Security Operations Division has overall responsibility for the oversight and funding of
      compound security programs and FE/BR maintenance and repair.

              (U) The Program Security Operations Branch controls the funding for physical security
      upgrades of existing facilities, which include NECs and NCCs after the warranty period ends.
      There are two categories of physical security upgrades: major and minor. Major upgrades are
      large-scale multi-million dollar projects for posts that will not receive an NEC in the near future.
      These projects are generally prioritized using DS’s risk rankings and are managed by an OBO
      Project Director. Minor upgrades are quick projects that are not very complex, such as installing
      planters, bollards, window grills, or mantraps. OBO sets aside between $2 million and
[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                    8
                                       SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


$3 million annually for minor upgrades, which, according to OBO, has been an amount sufficient
to meet posts’ needs in the past. Minor upgrades are managed by post personnel, and OBO
provides the post with design expertise.

          (SBU) Office of Strategic Planning. The Office of Strategic Planning manages the
Department’s “Top 80” list, a strategic planning document that prioritizes capital security
construction spending.21 By law,22 the Department is authorized to spend capital security
appropriations only among the top 80 most vulnerable posts (that is, posts on the Top 80 list).
OBO creates the Top 80 list annually using DS’s risk rankings and factors such as Department
priorities and the existence or potential of a ready-to-build site. Moving a post into the Top 80
list is the first step toward an NEC or NCC project. [Redacted] (b) (5), [Redacted] (b) (7)(F)



(U) National Security Decision Directive 38

        (U) NSDD-38, signed by President Reagan on June 2, 1982, gives the chief of mission at
each Department mission control of the size, composition, and mandate of overseas full-time
mission staffing for all U.S. Government agencies. Chief of mission approval is required before
any U.S. Government agency can make personnel changes at a post. The NSDD-38 process
applies to direct-hire, full-time permanent positions staffed by U.S. citizens and foreign
nationals. An NSDD-38 decision should be part of the mission’s efforts to tie resources to the
priorities outlined in the mission strategic plan. The Department’s Under Secretary of State for
Management has the lead in managing requests by U.S. Government agencies for additions,
deletions, and changes to their staffing overseas.

       (U) RSOs have the responsibility under NSDD-38 to advise the chief of mission about
the impact of personnel increases on the post security program, both short term and long term.
Specifically, RSOs evaluate the impact of additional personnel on the regional security program
and determine whether existing resources would sustain additional personnel given the threat
environment.

                                                (U) Objective
        (U) The objective of this audit was to determine to what extent selected NECs and NCCs
at overseas posts that have high threat levels complied with current physical security standards
and whether management officials at these posts used available authorities to effectively
implement the post security program.




21
   (U) The Capital Security Construction Program provides funding for the replacement of facilities at vulnerable 

posts. 

22
   (U) Pub. L. No. 106-113 (1999). 


                                                9
                                   SENSITIVE BUT UNCLASSIFIED
                                            SENSITIVE BUT UNCLASSIFIED



                                                      (U) Audit Results

        (U) Finding A. Common Security Deficiencies Were Found at Selected Posts
                (SBU) OIG conducted physical security compliance reviews at five selected posts that
        had NECs or NCCs [Redacted] (b) (5), [Redacted] (b) (7)(F)
                                                                                           OIG found
        that the posts were not always in compliance with current physical security standards and that
        common physical and procedural security deficiencies23 existed at the posts. [Redacted] (b) (5),
   [Redacted] (b) (5), [Redacted] (b) (7)(F)                                                          [Redacted] (b) (7)
                                                                                                      (F)




   [Redacted] (b) (5), [Redacted] (b) (7)(F)
                                            These physical security deficiencies occurred for reasons
        ranging from changes in physical security standards to design, construction, and maintenance
        issues that, if exploited, could compromise the safety of post personnel and property.

                (U) OIG provided the ambassadors and the consul general at the posts with a
        post-specific Outline for Action report detailing selected deficiencies found during the physical
        security compliance reviews.24 The ambassadors and the consul general at the posts promptly
        took action to address or mitigate many of the deficiencies reported. Of 38 recommendations
        that OIG made, 25 had been closed and 13 remained open awaiting resolution. For the majority
        of recommendations that remained open, posts responded that plans were underway to remedy
        the deficiencies. These reports, including the posts’ responses, are included in Appendix C.
[Redacted] (b) (5), [Redacted] (b) (7)(F)




        23
          (U) OIG defined common deficiencies as deficiencies found in two or more of the five posts reviewed.
        24
          (U) In the “Outline for Action” reports, OIG reported deficiencies that the posts could or should address in a
        timely manner.
    [Redacted] (b) (5), [Redacted] (b) (7)(F)



                                                        10
                                            SENSITIVE BUT UNCLASSIFIED
                                            SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                        11 

                                            SENSITIVE BUT UNCLASSIFIED

                                      SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                  12 

                                      SENSITIVE BUT UNCLASSIFIED

                                            SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                        13 

                                            SENSITIVE BUT UNCLASSIFIED

                                        SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                    14 

                                        SENSITIVE BUT UNCLASSIFIED

                                      SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                  15 

                                      SENSITIVE BUT UNCLASSIFIED

                                   SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                               16 

                                   SENSITIVE BUT UNCLASSIFIED

                                       SENSITIVE BUT UNCLASSIFIED


[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                   17 

                                       SENSITIVE BUT UNCLASSIFIED

                                        SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                    18 

                                        SENSITIVE BUT UNCLASSIFIED

                                SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                            19 

                                SENSITIVE BUT UNCLASSIFIED

                                   SENSITIVE BUT UNCLASSIFIED


[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                               20 

                                   SENSITIVE BUT UNCLASSIFIED

                                   SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                               21 

                                   SENSITIVE BUT UNCLASSIFIED

                                            SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                        22 

                                            SENSITIVE BUT UNCLASSIFIED

                                       SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                   23 

                                       SENSITIVE BUT UNCLASSIFIED

                                      SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                  24 

                                      SENSITIVE BUT UNCLASSIFIED

                                       SENSITIVE BUT UNCLASSIFIED


[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                   25 

                                       SENSITIVE BUT UNCLASSIFIED

                                    SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                26 

                                    SENSITIVE BUT UNCLASSIFIED

                                 SENSITIVE BUT UNCLASSIFIED

 [Redacted] (b) (5), [Redacted] (b) (7)(F)




(U) Additional Bureau of Diplomatic Security Comments to the Draft Report and
    Office of Inspector General Responses

       (U) In its May 8, 2013, response (Appendix E) to the draft report, DS provided comments
that were not directly related to the recommendations. As appropriate, OIG incorporated those
technical comments into the report. DS’s principal comments and OIG’s replies are as
presented.

        (U) Identified Physical Security Deficiencies

        (SBU) DS provided comments on the report’s findings and discussed the physical
security deficiencies OIG had identified during its audit of five overseas posts. DS
acknowledged the deficiencies identified in the report and noted “the prompt and proper
attention from [RSOs] to correct identified issues.” DS also noted, however, that some
deficiencies were “minor” and had “a minimal impact on posts’ overall security posture.”

        (U) OIG Response

        (SBU) OIG acknowledges the prompt response from post officials to improve posts’
physical security posture by addressing the recommendations OIG presented in the Outline for
Action reports. However, it is important to recognize that the common deficiencies presented in
this report were found at New Embassy Compounds (NEC) and a New Consulate Compound
(NCC)[Redacted] (b) (5), [Redacted] (b) (7)(F). The type and extent of physical and procedural
security deficiencies identified at these posts are significant because these posts were completed
after the Department had implemented a program to replace deficient buildings with new, safe,
secure, and functional facilities following the 1998 attacks on the U.S. embassies in Nairobi,
Kenya, and Dar es Salaam, Tanzania. Moreover, physical and procedural security standards are
required for the purpose of providing a safe and secure environment in which post personnel can
work. OIG used the criteria established by the Department to assess compliance with physical
and procedural security standards. OIG submits that although DS may consider some of the
deficiencies identified in this audit report to be minor, these deficiencies do impact the overall
security posture because they fail to meet the very standards established by the Department.

        (U) No Need for Worldwide Action

        (SBU) DS stated that it did not believe that OIG’s random, non-statistical sampling of
posts provided “sufficient justification for action by RSOs worldwide.” DS further stated that
RSOs “perform a large number of priority security functions” and that, as such, was “reluctant to
task them further . . . to conduct reviews that are otherwise done” routinely through physical
security surveys, post security program reviews, program management reviews, and OIG
inspections. DS also noted that none of the audit’s findings “came as a surprise” to RSOs or to
post management at the posts audited and that RSOs routinely take corrective action to address
procedural security lapses and to report critical physical security deficiencies.

                                             27
                                 SENSITIVE BUT UNCLASSIFIED
                                        SENSITIVE BUT UNCLASSIFIED




               (U) OIG Response

               (SBU) In the selection of the posts reviewed for this audit, OIG used a judgmentally
       selected sample to assess compliance with physical security standards at NECs and NCCs
       considered high threat posts according to the political violence and/or terrorism categories in the
       Security Environment Threat List. Moreover, the sample comprised posts that spanned three
       regional bureaus. OIG submits that the sample selection based on threat levels and location of
       the posts was appropriate and helpful in informing the Department about the type and degree of
       common deficiencies that merited additional scrutiny at posts worldwide according to their
       respective threat level.

               (SBU) The Government Auditing Standards stipulates that both a statistical or judgment
       sample yield sufficient and appropriate audit evidence. A statistical sample is generally
       preferable, although it may not always be practicable. By definition, a statistical sample requires
       that each sampling unit in the population be selected via a random process and have a known,
       non-zero chance of selection. These requirements often pose a problem when conducting audits
       of the Department. When performing work overseas, for example, all posts, irrespective of size,
       must have a chance to be randomly selected. Therefore, the exclusion of one or more small
       posts, for example, Luxembourg, cannot be allowed. All posts—large and small—must have a
       chance to be randomly selected, and that chance must not be zero. However, a Department
       auditee would undoubtedly deem Luxembourg or many other small posts too atypical in most
       instances to merit inclusion in an OIG sample of posts.

               (SBU) Consequently, OIG must often employ another type of sample permitted by
       Government Auditing Standards—namely, a non-statistical sample known as a judgment sample.
       A judgment sample is a sample selected by using discretionary criteria rather than criteria based
       on the laws of probability. As it did for this audit, OIG routinely takes great care in determining
       the criteria to use for sampling posts and other population sampling units.

                (SBU) Although it is possible that the physical security deficiencies identified in this
       report may not be as prevalent or may not exist at all the posts that OIG did not audit, it would
       not be prudent to automatically presume that that these conditions are nonexistent at other posts.
       Such a supposition would be especially ill-advised for an issue as important as the security of
       Department personnel. Moreover, OIG visited some posts that had incorporated some of the
       newest physical security measures but found that physical and procedural security deficiencies
       still persisted. In addition, in the latest inspections reports for the selected posts, the Office of
       Inspections found similar deficiencies.53 Therefore, OIG concluded, and maintains, that DS
       should take appropriate actions to resolve and close the recommendations offered in this report.




[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                    28
                                        SENSITIVE BUT UNCLASSIFIED
                                       SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                   29 

                                       SENSITIVE BUT UNCLASSIFIED

                                            SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                        30 

                                            SENSITIVE BUT UNCLASSIFIED

                                            SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                        31 

                                            SENSITIVE BUT UNCLASSIFIED

                                       SENSITIVE BUT UNCLASSIFIED


[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                   32 

                                       SENSITIVE BUT UNCLASSIFIED

                                        SENSITIVE BUT UNCLASSIFIED


[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                    33 

                                        SENSITIVE BUT UNCLASSIFIED

                                            SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                        34 

                                            SENSITIVE BUT UNCLASSIFIED

                                      SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                  35 

                                      SENSITIVE BUT UNCLASSIFIED

                             SENSITIVE BUT UNCLASSIFIED



                                List of Recommendations

(SBU) Recommendation 1. [Redacted] (b) (5), [Redacted] (b) (7)(F)



(SBU) Recommendation 2. [Redacted] (b) (5), [Redacted] (b) (7)(F)

                                                                    .

(SBU) Recommendation 3. [Redacted] (b) (5), [Redacted] (b) (7)(F)




(SBU) Recommendation 4. [Redacted] (b) (5), [Redacted] (b) (7)(F)




(SBU) Recommendation 5. [Redacted] (b) (5), [Redacted] (b) (7)(F)



(SBU) Recommendation 6. [Redacted] (b) (5), [Redacted] (b) (7)(F)




(SBU) Recommendation 7. [Redacted] (b) (5), [Redacted] (b) (7)(F)




(SBU) Recommendation 8. [Redacted] (b) (5), [Redacted] (b) (7)(F)




(SBU) Recommendation 9. [Redacted] (b) (5), [Redacted] (b) (7)(F)




                                         36
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


(SBU) Recommendation 10. [Redacted] (b) (5), [Redacted] (b) (7)(F)



(SBU) Recommendation 11. [Redacted] (b) (5), [Redacted] (b) (7)(F)




(SBU) Recommendation 12. [Redacted] (b) (5), [Redacted] (b) (7)(F)



(SBU) Recommendation 13. [Redacted] (b) (5), [Redacted] (b) (7)(F)




(SBU) Recommendation 14. [Redacted] (b) (5), [Redacted] (b) (7)(F)



(SBU) Recommendation 15. [Redacted] (b) (5), [Redacted] (b) (7)(F)




(SBU) Recommendation 16. [Redacted] (b) (5), [Redacted] (b) (7)(F)




(SBU) Recommendation 17. [Redacted] (b) (5), [Redacted] (b) (7)(F)




(SBU) Recommendation 18. [Redacted] (b) (5), [Redacted] (b) (7)(F)




                                        37 

                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


(SBU) Recommendation 19. [Redacted] (b) (5), [Redacted] (b) (7)(F)




(SBU) Recommendation 20. [Redacted] (b) (5), [Redacted] (b) (7)(F)



(SBU) Recommendation 21. [Redacted] (b) (5), [Redacted] (b) (7)(F)




(SBU) Recommendation 22. [Redacted] (b) (5), [Redacted] (b) (7)(F)




(SBU) Recommendation 23. [Redacted] (b) (5), [Redacted] (b) (7)(F)




(U) Recommendation 24. [Redacted] (b) (5), [Redacted] (b) (7)(F)




                                         38 

                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED



                                                                                           Appendix A
                                    Scope and Methodology

        (U) The Department of State (Department), Office of Inspector General (OIG), Office of
Audits, conducted this performance audit to determine to what extent selected New Embassy
Compounds (NEC) and New Consulate Compounds (NCC) at overseas posts that have high
threat levels complied with current physical security standards and whether management
officials at these posts used available authorities, such as the National Security Decision
Directive 38, to effectively implement the post security program.

        (SBU) OIG conducted fieldwork for this audit from April to October 2012 in the
Washington, DC, metropolitan area and at four NECs and one NCC at overseas posts that had
high terrorism and/or political violence threat levels [Redacted] (b) (5), [Redacted] (b) (7)(F)

          OIG developed a sampling methodology to select the five overseas posts. (The
Detailed Sampling Methodology section of this appendix provides additional details.)

        (U) OIG conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that OIG plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for the findings and
conclusions based on the audit objective. OIG believes that the evidence obtained provides a
reasonable basis for the findings and conclusions based on the audit objective.

        (U) To obtain background information and criteria on physical security, mission strategic
planning, and the National Security Decision Directive 38 process, OIG reviewed Federal laws
relevant to current physical security standards, the Foreign Affairs Manual, the Foreign Affairs
Handbook, the Bureau of Overseas Buildings Operations Building Code and Zoning Code, and
other internal guidance. OIG reviewed mission-strategic and resource planning guidance and
National Security Decision Directive 38 policy documents. In addition, OIG reviewed prior
audit work conducted by the Government Accountability Office and OIG’s Office of Inspections
(ISP).

       (U) In the Washington, DC, metropolitan area, OIG interviewed officials from the
Bureaus of Diplomatic Security, Overseas Buildings Operations, [Redacted] (b) (5), [Redacted] (b) (7)(F)
                                                    and from the Office of Management Policy,
Rightsizing and Innovation. At the selected posts, OIG interviewed officials who included the
Deputy Chief of Mission, the Regional Security Officer, the Management Officer, the Human
Resources Officer, the Financial Management Officer, the Facilities Manager, the Security
Engineering Officer, and tenant agency representatives.

        (U) OIG conducted physical security compliance reviews at the five selected posts to
determine compliance with current physical security standards. The compliance review
instrument included criteria contained in the Secure Embassy Construction and Counterterrorism
Act of 1999, the Foreign Affairs Manual, the Foreign Affairs Handbook, the Bureau of Overseas
Buildings Operations Codes, and internal guidance memoranda. Upon identifying physical
security deficiencies at the selected posts, OIG determined the immediate causes for the

                                           39
                               SENSITIVE BUT UNCLASSIFIED
                                       SENSITIVE BUT UNCLASSIFIED


      deficiencies and what effect, if any, the discrepancies had at post. OIG used the results from the
      physical security compliance reviews to identify common deficiencies. Furthermore, OIG
      obtained access to the Web-based application that manages National Security Decision Directive
      38 applications to determine how many requests were submitted for FYs 2009, 2010, and 2011.

      (U) Prior Reports

             (SBU) From 2007 to 2011, ISP assessed, for the five posts selected for this audit,
      physical and procedural security, [Redacted] (b) (5), [Redacted] (b) (7)(F)
                                                                                      ISP issued 68
      recommendations to address physical security weaknesses identified. As of February 2013, all
      but one of the physical security-related recommendations had been implemented and closed.
      [Redacted] (b) (5), [Redacted] (b) (7)(F)




              (U) The Government Accountability Office (GAO) reported in January 20082 that the
      Department had enhanced security at overseas facilities but that site conditions prevented full
      adherence to physical security standards. For example, most of the posts GAO visited were
      located in dense urban areas, which prevented the posts from achieving the required 100-foot
      standoff from the perimeter. In other cases, buildings were not structurally capable of handling
      heavy forced-entry/blast-resistant windows, and host nations or cities would not allow certain
      upgrades to be implemented, such as removing trees to create a clear zone around the embassy or
      changing the facade of historic buildings. GAO also found that the Department had used a
      threat- and vulnerability-based planning process to prioritize security projects. However, this
      process only accounted for the needs of the main compound and did not factor in security for
      off-compound facilities. GAO found that many of these off-compound facilities lacked required
      physical security measures. GAO did not make any recommendations regarding physical
      security in its January 2008 report.
               
               (U) In a July 2010 report,3 GAO found that over half of 44 NECs reviewed did not fully
      meet space needs because personnel levels had exceeded the originally built office space. Post
      management officials had dealt with space limitations by converting spaces such as conference
      rooms into offices, but four posts that GAO reviewed—Abuja, Nigeria; Beijing, China;
      Kathmandu, Nepal; and Berlin, Germany—retained off-compound space “for staff [who] could
      not fit in the NECs.” Department officials stated that it was difficult to predict changing foreign
      policy priorities that could affect personnel levels and that the process for planning NECs had
      been unable to fully account for these changes. GAO found that the Department had taken some
      actions to improve NEC sizing but that the Department did not have sufficient flexibility in its
      staffing projection and design processes to better address sizing challenges. GAO did not make
      any recommendations regarding physical security in its July 2010 report.
[Redacted] (b) (5), [Redacted] (b) (7)(F)
                                                                ut Site Conditions Prevent Full Adherence to
      Standards (GAO-08-162, Jan. 2008).
      3
        (U) New Embassy Compounds – State Faces Challenges in Sizing Facilities and Providing for Operations and
      Maintenance Requirements (GAO-10-689, July 2010).

                                                   40
                                       SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



(U) Work Related to Internal Controls

        (U) OIG performed steps to assess the adequacy of internal controls related to the areas
audited. For example, OIG verified with post officials whether the NECs and NCC at overseas
posts had taken corrective steps to ensure prompt audit resolution of findings from audits and
other reviews. In addition, OIG asked post officials about any control deficiencies they had
identified. Work performed on internal controls during the audit is detailed in the Audit Results
section of the report.

(U) Detailed Sampling Methodology

        (U) OIG selected, for site visits and review, four NECs and one NCC at overseas posts
that had high terrorism and/or political violence threat levels. OIG used a non-statistical
sampling method known as judgment sampling. Because this method uses discretionary criteria
to effect sample selection, OIG was able to use information garnered during its preliminary work
to aid in making informed selections.

        (U) A prime consideration in selecting the five sites, which are highlighted in Table 1,
was the date on which each NEC or NCC was constructed. OIG also considered the political
importance of the country to the United States. The geographical distribution of the posts was
another factor—OIG selected a maximum of two posts from three regions. The criteria for
selection of posts also included logistical considerations.




                                          41
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                           42 

                               SENSITIVE BUT UNCLASSIFIED

                                            SENSITIVE BUT UNCLASSIFIED



                                                                                            Appendix B
                                              Physical Security Criteria

                   (U) The criteria used while conducting the physical security compliance review at the
           selected New Embassy Compounds and the New Consulate Compound are described in Table 1.
[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                        43
                                            SENSITIVE BUT UNCLASSIFIED
                                            SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                        44 

                                            SENSITIVE BUT UNCLASSIFIED

                                            SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                        45 

                                            SENSITIVE BUT UNCLASSIFIED

                                            SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                        46 

                                            SENSITIVE BUT UNCLASSIFIED

                                            SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                        47 

                                            SENSITIVE BUT UNCLASSIFIED

                                        SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                    48 

                                        SENSITIVE BUT UNCLASSIFIED

                                            SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                        49 

                                            SENSITIVE BUT UNCLASSIFIED

                                            SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                        50 

                                            SENSITIVE BUT UNCLASSIFIED

                                            SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                        51 

                                            SENSITIVE BUT UNCLASSIFIED

                                 SENSITIVE BUT UNCLASSIFIED



                                                                                                                       Appendix C
                                     Outline for Action Reports
                                                                                 I ni!l·cl Stale" Dt'parlmt>nl of ::;lilt<'
                                                                                 .uultlw Broadt'a!'lill~ Roard of Gmt•

                                                                                 l~!Jirt• <~( ' "·'!"''tor Gt•twrul


                                                                                         SEP 2 8 2012
   SENSITIVE BUT UNCLASSIFIED
   (UNCLASSIFIED when separated from Enclosure)
[Redacted] (b) (5), [Redacted] (b) (7)(F)


                                     [Redacted] (b) (5), [Redacted] (b) (7)(F)


   Dear Mr.~

  Enclosed for your review and action is a copy of the final report Outline fo r Action: Physical
  Security Concerns at [Redacted] (b) (5), [Redacted] (b) (7)(F) This report is part of an overall audit of
  Department of State compliance with physical security standards and measures taken to address
  threat levels at selected overseas posts.

  Based on your response to the report, the Office of Inspector General (OIG) considers seven
  recommendations (Nos. 2, 3, 5-7, 9, and 10) closed and three recommendations (Nos. I. 4, and
  8) resolved, pending further action. Actions taken or planned arc subject to followup and
  reporting in accordance with the enclosed compliance response information.

  OIG incorporated your comments as appropriate within the body of the report and included them
  in their entirety as Appendix A. This report will be included as an appendix in the final report on
  selected overseas posts' compliance with physical security standards.

  OTG appreciates the cooperation and assistance provided by embassy staff during this audit. lf
  you have any questions, please contact Evelyn R. Klemstine, Assistant Inspector General for
  Audits, at (202) 663[Redacted] (b) or
                                     (6)
                                         by e-mail at [Redacted] (b) (6) @state.gov or Regi na Meade, Director,
  Division of Security and Intelligence, at (703) 284-[Redacted] (b)or       (6)
                                                                                 by e-mail at [Redacted] (b) (6)@state.gov.




  Enclosures: As stated.

  cc: OBO - Lydia J. Mwriz
      DS - Eric J. Boswell




                                       SENSITIVE BUT UNCLASSIFIED




                                             52
                                 SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                 53 

                                     SENSITIVE BUT UNCLASSIFIED

                                    SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                54 

                                    SENSITIVE BUT UNCLASSIFIED

                                   SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                               55 

                                   SENSITIVE BUT UNCLASSIFIED

                                  SENSITIVE BUT UNCLASSIFIED


[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                              56 

                                  SENSITIVE BUT UNCLASSIFIED

                                    SENSITIVE BUT UNCLASSIFIED


[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                57 

                                    SENSITIVE BUT UNCLASSIFIED

                                    SENSITIVE BUT UNCLASSIFIED



                                                                                                                      Appendix A




                                                            Embassy ofthe United States ofAmerica
                                                     [Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                            Septem ber 14, Z012



SENSITIVE BUT UNCLASSIFIED

Mr. Harold W. Geisel
Deputy Inspector General
Office of rnspector General

Dear ~i~0
fn regarrls to the Outline for Action included in the security audit report provided by the Office
of Audits of the Office of Inspector General (OIG), please find attached Embassy [Redacted] (b) (5), [Redacted] (b) (7)(F)
response to the physical security areas of concern outlined in the report.
                                                                                                 [Redacted] (b) (6)
Ifyou have any questions or concerns. please contact Regional Security Officer
[Redacted] (b) (6)
                   at [Redacted] (b) (6) or at[Redacted] (b) (6)@state.gov.


                                             [Redacted] (b) (5), [Redacted] (b) (7)(F)




Enclosure




                                SENSJTlVE BUT UNCLASSIFIED




                                                            6




                                                58 

                                    SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                             59 

                                 SENSITIVE BUT UNCLASSIFIED

                                 SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                             60 

                                 SENSITIVE BUT UNCLASSIFIED

                                 SENSITIVE BUT UNCLASSIFIED


[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                             61 

                                 SENSITIVE BUT UNCLASSIFIED

                                         SENSITIVE BUT UNCLASSIFIED





                                                                                 lniLed .'tales Department of Stale
                                                                                 and the Broarlcasti ng Board of Govt·rnor=-

                                                                                 (Wice of Inspector General


                                                                                           SEP 2 8 2012
     SENSITIVE BUT UNCLASSIFIED
     (UNC LASSIFIED when separated from Enclosure)
[Redacted] (b) (5), [Redacted] (b) (7)(F),
[Redacted] (b) (6)


      Dear Mr. A~or:

     Enclosed for your review and action is a copy of the final report Outline for Action: Physical
     Security Concerns at [Redacted] (b) (5), [Redacted] (b) (7)(F) This report is part of an overall audit of
     Department of State compliance with physical security standards and measures taken to address
     threat levels at selected overseas posts.

     Based on your response to the draft report, the Office of Inspector General (OIG) considers four
     recommendations (Nos. 1- 3 and 5) closed and two recommendations (Nos. 4 and 6) resolved,
     pending further action. Actions taken or planned are subject to followup and reporting in
     accordance with the enclosed compliance response information.

     OIG incorporated your comments as appropriate within the body of the report and i11cluded them
     in their entirety as Appendix A. This report will be included as an appendix in the final report on
     selected overseas posts' compliance with physical security standards.

     OIG appreciates the cooperation and assistance provided by embassy staff during this audit. If
     you have any questions, please contact Evelyn R. Klemstine, Assistant Inspector General for
                          [Redacted] (b) (6)
     Audits, at (202) 663               or by e-mail at[Redacted] (b) (6)@state.gov or Regina Meade, Director,
                                                                    [Redacted] (b) (6)           [Redacted] (b) (6)
     Division of Security and Intelligence, at (703) 284                         or by e-mail at                    @state.gov.

      Sincerely,




     Enclosures: As stated.

     cc: OBO - Lydia J. Muniz
         DS -Eric J. Boswell




                                          SENSITIVE BUT UNCLASSIFIED




                                                     62 

                                         SENSITIVE BUT UNCLASSIFIED
                                            SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                        63 

                                            SENSITIVE BUT UNCLASSIFIED

                                      SENSITIVE BUT UNCLASSIFIED


[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                  64 

                                      SENSITIVE BUT UNCLASSIFIED

                                   SENSITIVE BUT UNCLASSIFIED


[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                               65 

                                   SENSITIVE BUT UNCLASSIFIED

                                   SENSITIVE BUT UNCLASSIFIED


[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                               66 

                                   SENSITIVE BUT UNCLASSIFIED

                                            SENSITIVE BUT UNCLASSIFIED




                                                                 Embassy of the United States of America

                                                                [Redacted] (b) (5), [Redacted] (b)
                                                                (7)(F)

                                                                                September 03, 2012




         SENSITIVE BUT UNCLASSIFIED
         (UNCLASSIFIED when separated from Enclosure)


         Harold W. Geisel
         Deputy Inspector General
         Office of the Inspector General

         Dear H0d:                   Jt,7
[Redacted] (b) (5), [Redacted] (b) (7)(F)
                           very much appreciates the opportunity to have recently hosted the Office of the
                          al, Office of Audits and to have assisted the auditors with their efforts to evaluate
         whether our chancery' s physical security is in compliance with current standards. The audit
         itself proved to a very collaborative, instructive, and fruitful exercise that resulted in the outline
         for action that you have provided to me. My staff has worked to address these recommendations
         with the utmost of expediency.

         I would like to provide you now with our responses to the given recommendations. [Redacted] (b) (5), [Redacted] (b) (7)(F)
                continues to aim for full compliance as a top priority. Our Senior Regional Security
         Officer (SRSO),[Redacted] (b) (5), [Redacted] (b) (7)(F), [Redacted] (b) (6)
                                                  , will        maintain dialog with the Office of Audits to ensure we have
         fully addressed each recommendation.



                                                                                Sincerely,
                                                                     [Redacted] (b) (5), [Redacted] (b) (7)(F), [Redacted] (b) (6)




                                                        67 

                                            SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED



[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                            68 

                                SENSITIVE BUT UNCLASSIFIED

                                                                              SENSITIVE BUT UNCLASSIFIED




                                                                                                        l ni\Pil "'tJtf ~ I )t>parluwut oi :-:.talP
                                                                                                        ancl tht> Rmadc·a.;..ting Bnanl of Gm Prnnr...

                                                                                                        O{jit·t· 11.{ ln.,pPct nr Gpnt>J 11l

                                                                                                        NOV Z 1 2012




         SENSITIVE BUT UNCLASSIFIED
         (UNCLASSIFIED when separated from Enclosure)
[Redacted] (b) (5), [Redacted] (b) (7)(F), [Redacted] (b) (6)




                  [Redacted] (b) (5), [Redacted] (b) (7)(F), [Redacted] (b) (6)
         Dear

         Enclosed for your review and action is a copy of the final report Outline for Action: Physical
         Security Concerns at [Redacted] (b) (5), [Redacted] (b) (7)(F)       Based on your response to
         the draft report, the Office of Inspector General (OIG) considers Recommendations 1 and 2
         dosed, Recommendations 3 and 6 resolved, and Recommendations 4 and 5 unresolved. Please
         provide your response to the report and information on actions taken or planned for the open
         recommendations \\ithin 30 days of the date of this lener. Actions taken or planned are subjfX:t
         to followup and reporting in accordance with the enclosed compliance response information.

         OIG incorporated your comments as appropriate within the body of the report. and included them
         in their entirety as Appendix A. This report will be included as an appendix in the final repOrt. on
         selected overseas posts' compliance with physical security standards.

         01(1 appreciates the cooperation and assistance provided by your staff during this audit. If you
         have any questions, please contact Evelyn R. Klemstine, Assistant lnspector General for Audits,
                                    [Redacted] (b) (6)
         at (202) 663-      or by e-mail at [Redacted] (b) (6)·a statc.um or Regina Meade, Director, Division of
                                                                                   [Redacted] (b) (6)    [Redacted] (b) (6)
         Security and Intelligence, at (703) 284-             or by e-mail at       11 ::.L<tte.gg\ .

         Sincerely,



         Harold W. Geisel
         Deputy Inspector General

         Enclosures: As stated.

         cc: OBO - Lydia J. MuniL
             OS - Eric J. Boswell




                                                                                          69 

                                                                              SENSITIVE BUT UNCLASSIFIED
                                      SENSITIVE BUT UNCLASSIFIED


[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                  70 

                                      SENSITIVE BUT UNCLASSIFIED

                                   SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                               71 

                                   SENSITIVE BUT UNCLASSIFIED

                               SENSITIVE BUT UNCLASSIFIED



[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                           72 

                               SENSITIVE BUT UNCLASSIFIED

                               SENSITIVE BUT UNCLASSIFIED


[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                           73 

                               SENSITIVE BUT UNCLASSIFIED

                                             SENSITIVE BUT UNCLASSIFIED



                                       SENSITIVE BUT UNCLASSIFIED


                                                                                                                                     Appendix A



                                                [Redacted] (b) (5), [Redacted] (b) (7)(F)



                                                                Oc;tober   e, 2012


 SENSITIVE BUT UNCLASSIFIED
 NNCLASS!FED when separated from Enclosure)

 Mr. Harold W. Geisel
 Deputy Inspector General
 Office of Inspector General


 Dear Mr. Geisel,
 [Redacted] (b) (5), [Redacted] (b)
                                Redacted]
                                    (7)(F) (b)
                                               viewed the recommendations provided to us in the
 010 Outline for Action: Physical Security Concerns for[Redacted] (b) (5), [Redacted] (b)[Redacted]
                                                                                           (7)(F)   (b) (5), [Redacted] (b) (7)(F)


 memorandum, dated August 16,2012. Attached to this lener you will find our responses for
 your review. We believe the recommendations have been resolved except for rwo, which require
 additional action to be taken by the Regional Security Office and Management Office. I have
 instrUCted my staff to keep you properly infonned of their progress while resolving these
 recommendations.

 Should you have any questions regarding our responses, please contact RSO [Redacted] (b) (6) via
 email [Redacted] (b) (6)~tate.gov or at [Redacted] (b) (6)

 Sincerely,
[Redacted] (b) (6), [Redacted] (b) (5), [Redacted] (b) (7)(F)




  Enclosure




                                                    5
                                       SENSITIVE BUT UNCLASSIFIED




                                                         74 

                                             SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                               75 

                   SENSITIVE BUT UNCLASSIFIED

                               SENSITIVE BUT UNCLASSIFIED


[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                           76 

                               SENSITIVE BUT UNCLASSIFIED

                                     SENSITIVE BUT UNCLASSIFIED





                                                                             lnil••d   :"'l:tlt·:- I JtJ'•IIIIIII"III"   "'l..tlc
                                                                             ant! tlw Broatlt".bl tnl! B~t,mltoi Lm t·nH •r..
                                                                            "1.1" ,. 1)1 lll $f Wt l m   (,,,,   rul


     SENSITIVE BUT U~CLASSIFIED                                                 troY 21 2012
     (l;"NCLASSIFIED when separated from F.ntlosure)
[Redacted] (b) (5), [Redacted] (b) (7)(F),
[Redacted] (b) (6)



     Dear Mr. Ambassador·

     Enclosed for your review and action is a copy of the final report Outline for Action: Physical
                                      [Redacted] (b) (5), [Redacted] (b) (7)(F)
     Sec.--ruiry Concerns at                                                    13ased on your response to the draft
     report, the Office oflnspector General (OIG) considers Recommendations 1. 3. 7. 9 and 10
     closed and Recommendations 2, 4-6, and 8 resolved. Please provide your response to the report
     and information on actions taken or planned for the open recommendations within 30 days of the
     date of this letter. Actions taken or planned are subject to followup and reporting in accordance
     with the enclosed compliance response information.

     OIG incorporated your comments as appropriate "'rilhin the body of the report and included them
     in their entirety as Appendix A. This repon will be included as an appendix in the final report on
     selected overseas posts' compliance wilh physical security standards.

     OIG appreciates the cooperation and ~-istance provided by your staff during this audit. Ifyou
     ha\·e any questions, please contact Evelyn R. .Klcmstine. Assistant Inspector General for Audits,
                   [Redacted] (b) (6)                           [Redacted] (b) (6)
     at (202) 663-            or by e-mail at [Redacted] (b) (6) 11 'l.lto.: . .! ,. or Regina Meade, Director. Division of
                                                         [Redacted] (b) (6)              [Redacted] (b) (6)
     Security and Intelligence. at (703) 284-                       or by e-mail al                       u «to •C-f\ \ .

     Sincerely.

   ~0/C.~
     Harold W. Geisel
     Deput) Inspector General

     Enclosure: As stated.

     cc: OBO- Lydia J. Muniz
         DS - Eric J. Boswell




                                         SENSITIVE BliT UNCl.ASSJFIED




                                                 77 

                                     SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                 78 

                                     SENSITIVE BUT UNCLASSIFIED

                                   SENSITIVE BUT UNCLASSIFIED


[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                               79 

                                   SENSITIVE BUT UNCLASSIFIED

                                  SENSITIVE BUT UNCLASSIFIED


[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                              80 

                                  SENSITIVE BUT UNCLASSIFIED

                                   SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                               81 

                                   SENSITIVE BUT UNCLASSIFIED

                                   SENSITIVE BUT UNCLASSIFIED


[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                               82 

                                   SENSITIVE BUT UNCLASSIFIED

                                      SENSITIVE BUT UNCLASSIFIED


[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                  83 

                                      SENSITIVE BUT UNCLASSIFIED

                                  SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                7



                                              84 

                                  SENSITIVE BUT UNCLASSIFIED

                                         SENSITIVE BUT UNCLASSIFIED



                                                                                                                                                  Appendix A

                                                                                                                                 [Redacted] (b) (5), [Redacted] (b) (7)(F)

                                                                                                   U11itetl States Mis.5ion to
                                                                                        [Redacted] (b) (5), [Redacted] (b) (7)(F)




     SENSITIVE BUT UNCLASSIFIED                                                                             Oct22, 2012
     MEMORANDUM

     To:           Harold Geisel, Deputy Inspector General

     From:         [Redacted] (b) (7)(F), [Redacted] (b) (6), [Redacted] (b) (5)


     Subject:      Response to the OIG Outline for Action: Physical Security Concerns
                   [Redacted] (b) (5), [Redacted] (b) (7)(F)



                                   [Redacted] (b) (7)(F), [Redacted] (b) (6), [Redacted] (b) (5)
     REF:          Geisel-                           Letter of September. l 0, 201 2

     Thank you very much for your letter dated September 10, 2012, and for providing
     me with an Outline for Action regarding physical security conce::ms at Embassy
     [Redacted] (b) (5), [Redacted] (b) (7)(F)
                          . Please be assured that our Mission takes matters of security seriously
     and that we are in the process of addressing all of the OIG's concerns. In light of
     the tragic events in Benghazi, we are all more cognizant U1an ever of U1e
     importance of physical security. I am pleased to report that most of the
     recommendations have already been completed and that Post has set the goal of
     completing the rest by the end of Februaty 2013. The following responses are
     keyed to the recommendations provided in the OuUine for Action:
[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                                                8




                                                     85 

                                         SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                    86 

                        SENSITIVE BUT UNCLASSIFIED

                        SENSITIVE BUT UNCLASSIFIED




[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                    87 

                        SENSITIVE BUT UNCLASSIFIED

                                         SENSITIVE BUT UNCLASSIFIED



                                                                             C nile• l ..;;,lalt'" Dt·partnwnt ot ::-tak
                                                                             and thf" Hw.~uk<i--ling B11anl nf\,mf"mor:-

                                                                             Ojjirr> "' ' "·'1~~'''/m (,,.fll'rttl
                                                                             NOV i 1 2012

        SENSITIVE BUT UNCLASSIFIED
        (UNCLASSIFIED when separated fr om E nclosure)
[Redacted] (b) (6), [Redacted] (b) (5),
[Redacted] (b) (7)(F)




        Dear Mr. Ambassador:

        Enclosed for your review and action is a copy of the final report Outline for Action: Physical
                                                                       [Redacted] (b) (5), [Redacted] (b) (7)(F)
        Security Concerns ul [Redacted] (b) (5), [Redacted] (b) (7)(F)                     13ased on your response to the
        draft report, the Office of Inspector General (OIG) considers Recommendations 1 and 3-6
        resolved and Recommendation 2 unresolved. Please provide your response to the report and
        information on actions taken or planned for the open recommendations v..rithin 30 days of the
        date of this letter. Actions taken or planned are subject to follo.,vup and reporting in accordance
        with the enclosed compliance response information.

        OIG incorporated your comments as appropriate within the body of the report and included them
        in their entirety as Appendix A. This report will be included as an appendix in the final repon on
        selected overseas posts' compliance with physical security standards.

        OIG appreciates the cooperation and assistance provided by your staiT during lhis audit. lf you
        have any questions, please contact Evelyn R. Klemstine, Assistant lnspector General for Audits,
                      [Redacted] (b) (6)
        at (202) 663-             or by e-mail at [Redacted] (b) (6)state.t.:o' or Regina Meade, Director, Division of
                                                         [Redacted] (b) (6)          [Redacted] (b) (6)
        Security and Intelligence, at (703) 284-                     or by e-mail at                   £!_statc.!!o\·.

        Sincerely,

       ~~/C_~
        Harold W. Geisel
        Deputy Inspector General

        Enclosure: As stated.

        cc: OBO Lydia J. Muniz
            DS - Eric J. Boswell




                                          SENSITIVE BUT UNCLASSfFIED




                                                     88 

                                         SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                              89 

                                  SENSITIVE BUT UNCLASSIFIED

                                  SENSITIVE BUT UNCLASSIFIED


[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                              90 

                                  SENSITIVE BUT UNCLASSIFIED

                                 SENSITIVE BUT UNCLASSIFIED


[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                             91 

                                 SENSITIVE BUT UNCLASSIFIED

                                 SENSITIVE BUT UNCLASSIFIED


[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                             92 

                                 SENSITIVE BUT UNCLASSIFIED

                                SENSITIVE BUT UNCLASSIFIED


[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                             5




                                            93 

                                SENSITIVE BUT UNCLASSIFIED

                                             SENSITIVE BUT UNCLASSIFIED



                                   SENSITIVE BUT UNCLASSIFIED


                                                                                                               Appendix A




                                                                          October 12, 2012

       Mr. Harold W. Geisel
       Deputy Inspector General
       U.S. Department of State
       SA-3, Room 8100
       2121 Virginia Ave. N.W.
       Washington, D.C. 20037

      Dear Deputy Inspector Gt:neral Geisel:

           Thank you for your letter dated September I 0, 20!2, which outlined
                                                              [Redacted] (b) (5), [Redacted] (b) (7)(F)
      a number of recommendations regarding physical security

             The protection of my staff is my highest priority. I want to thank
      you and your team for their visit, which will allow us to further enhance the
      security at our facilities. I understand that the issues identified by your
                                                                   [Redacted] (b) (5), [Redacted] (b) (7)(F)
      team revolve around regulations that have changed since
                 [Redacted] (b) (5), [Redacted] (b) (7)(F), [Redacted] (b) (6)
      [Redacted] (b) (5), [Redacted] (b) (7)(F), [Redacted] (b) (6)




            Following is a review of the status of the items identified by your
      team as requiring immediate action. Most of them will require
      involvement and/or funding from the Bureau of Overseas Building
      Operations (OBO). My team will work closely with OBO and all other
      partners involved in the outlined issues for prompt resolution.

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                                      6
                                   SEi'iSITIVE BUT UNCLASSIFIED




                                                        94 

                                            SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED


[Redacted] (b) (5), [Redacted] (b) (7)(F)




                             95 

                 SENSITIVE BUT UNCLASSIFIED

                                      SENSITIVE BUT UNCLASSIFIED


[Redacted] (b) (5), [Redacted] (b) (7)(F)




            Again, I want to thank you and your team for conducting the survey
     and for their detailed findings . As stated, protecting people is my highest
     priority. My team ofRSO, ESO, and FM will continue to work with OBO
     to remedy these matters.
                                                                    [Redacted] (b) (6), [Redacted] (b) (5), [Redacted] (b) (7)(F)




     cc.
     DCM -[Redacted] (b) (6), [Redacted] (b) (5), [Redacted] (b) (7)(F)
     RSO -[Redacted] (b) (6), [Redacted] (b) (5), [Redacted] (b) (7)(F)
     OIG--Evelyn R. Klemstine



                                                                          3




                                                                              8




                                                  96 

                                      SENSITIVE BUT UNCLASSIFIED

                             SENSITIVE BUT UNCLASSIFIED



                                                                                    Appendix D

          Statuses of Recommendations for Outline for Action Reports

         The Office of Inspector General, based on the respective bureaus’ and embassies’
responses to the recommendations presented in all five of the Outline for Action reports, has
listed the statuses of the recommendations in Figure 1 of this appendix. The status designations
are defined as follows:

        Unresolved Recommendation. A recommendation is considered unresolved when there
is no management decision and the designated action office has not taken any of the following
actions:

       	 Management has not responded to the recommendation or has failed to obtain
          clearance of its response by the offices identified by OIG as participants in the
          compliance process.
        Management has failed to address the recommendation in a manner satisfactory to
          OIG.
        Management has indicated its disagreement with the recommendation in whole or in
          part and an impasse decision has not been issued.

        Resolved Recommendation. A recommendation is considered resolved, pending further
action, when one of the following actions occurs:

       	 The designated action office agrees with the recommendation but has not presented
          satisfactory documentation that it has implemented the recommendation or some
          other acceptable course of action that satisfies the intent of the recommendation.
        The action office informs OIG that it disagrees with all or part of the
          recommendation, and OIG agrees to accept partial compliance or noncompliance.
        Impasse procedures have led to a positive or negative final management decision.

        Closed Recommendation. A recommendation is closed when one of the following
actions occurs:

       	 OIG acknowledges that the designated action office has provided satisfactory
          evidence that the recommendation has been implemented.
       	 OIG acknowledges to the action office that an alternative course of action to that
          proposed in the recommendation will satisfy the intent of the recommendation, and
          satisfactory evidence showing that the alternative action has been completed is
          provided to OIG by the action office.
       	 OIG agrees that partial implementation is acceptable and has been completed or that
          noncompliance is acceptable.
       	 Department or BBG management has issued a positive decision, and implementation
          of the recommendation has been completed or a negative decision has been reached
          through impasse procedures.


                                         97
                             SENSITIVE BUT UNCLASSIFIED
                                        SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                    98 

                                        SENSITIVE BUT UNCLASSIFIED

                                        SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                    99 

                                        SENSITIVE BUT UNCLASSIFIED

                                            SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                        100 

                                            SENSITIVE BUT UNCLASSIFIED

                                     SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                 101 

                                     SENSITIVE BUT UNCLASSIFIED

                 SENSITIVE BUT UNCLASSIFIED



                                                                                  Appendix E
                                                   United States Department of State

                                                  Assistanl Secretary of ~·tate
                                                  for Diplomatic ,\'ecurity
                                                   Washinxtun, D.C. 20520



SENSITIVE BUT UNCLASSIFIED

MEMORANDUM

TO:          OIG - Harold W. Geisel
                                                                         MAY 08 2613
FROM:        DS - Gregory B. Starr, Acting"---

SUB.ifECT: Response to Draft Report on Amiit ofDepartment ofState Compliance
           with Physical Security Standards at Selected High Threat Level Posts
           (Report Number AUD-SI- 13-XX, dated April 2013)

      (U) The Bureau of Diplomatic Security (DS) appreciates the opportunity to
review and provide comments on the subject draft audit report. DS welcomes
cooperation with the Office of the Inspector General (OIG) in order to improve our
operations and ensure that we provide our. diplomatic and development
professionals the best possible security around the world. Constructive and timely
feedback from OIG inspections and audits is a useful tool in managing our security
programs at the 275 U.S. missions tor which we are responsible.

       (SBU) DS acknowledges the deficiencies identified in the subject draft
report and notes that the responses from the audited posts show prompt and proper
attention from Regional Security Officers (RSOs) to correct identified issues. DS
also notes, however, that some deficiencies are minor and have a minimal impact
on posts' overall security postures, [Redacted] (b) (5), [Redacted] (b) (7)(F)
                                                                                     .
Moreover, DS does not believe that a random, non-statistical sampling of posts,
such as formed the basis for this report, provides sufficient justification for action
by RSOs woddwide. Our RSOs perform a large nwnber of priority security
functions; 12 F AM 422 identifies more than 35 distinct responsibilities. As such,
DS is reluctant to task them further, as recommended in this report, to conduct
reviews that are otherwise done through more routine means such as physical
security survey~ DS post security program reviews. program management reviews
by our Office of Overseas Protective Operations (OPO), and OJG inspections.




                        SENSITIVE BUf UNCLASSIFIED




                             102 

                 SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




                           SENSITIVE BUT UNCLASSIFIED
                                          -2-
        (SBU) OS therefore does not concur with recommendations I, 4, 5, 13-16,
 20, and 21. RSOs, whether as part of one of the processes noted above or simply
 in the course oftheir daily business, already identify areas in which their posts'
 physical and/or procedural security postures do not fully comply with Overseas
 Security Policy Board (OSPB) standards or are not appropriate to their respective
 threat environments. As the draft report implicitly recognizes, almost none of the
 audit's findings in this regard came as a surprise toRSOs or post management at
 audited posts. RSOs routinely take corrective actions to address procedural
 security lapses with post personnel and to report critical physical security
 deficiencies. This reporting infonns physical security upgrade projects managed
 by posts and the Bureau of Overseas Buildings Operations (OBO), as well as DS­
 provided technical security upgrades. In addition, OS security engineering
 personnel routinely inspect the functionality of physical security features and make
 all possible repairs to maintain them in good working order. Finally, only a
 handful of these recommendations properly account for the key role that OBO
 plays in correcting instances of non-compliance with OSPB standards, [Redacte
[Redacted] (b) (5), [Redacted] (b) (7)(F)                                           d] (b) (5),
                                                                                    [Redacte
                     .                                                              d] (b) (7)
                                                                                    (F)
        (SBU) OS does not concur with recommendations 8 and 9 for similar
reasons. OS disagrees that there is a need to task RSOs worldwide with the actions
 noted in these recommendations, as they occur on a regular basis. [Redacted]
[Redacted] (b) (5), [Redacted] (b) (7)(F)                                 (b) (5),
                                                                          [Redacted]
                                                                               When
deficiencies are identified, they are corrected immediately. [Redacted] (b)(b)
                                                                            (5), [Redacted] (b) (7)(F)
                                                                                  (7)(F)
[Redacted] (b) (5), [Redacted] (b) (7)(F)


      (U) OS concurs with recommendations 18, 19, and 22, and our more detailed
responses are attached.

      (SBU) OS remains willing to meet with you or members of your staff to
discuss ways in which we can increase the utility for our programs of future audits
and/or inspections.




                            SENSITIVE BUT UNCLASSIFIED




                                   103 

                       SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED





                    SENSITIVE BUT UNCLASSIFIED
                                -3-
Attachments:
      Tab 1 - DS Response to Recommendation 18
      Tab 2 - DS Response to Recommendation 19
      Tab 3 - DS Response to Recommendation 22
      Tab 4 -Recommendations with which DS does not Concur




                    SENSITIVE BUT UNCLASSIFIED




                          104 

              SENSITIVE BUT UNCLASSIFIED

                          SENSITIVE BUT UNCLASSIFIED





                 Audit of Department of State Compliance With Physical Security
              Standards at Selected High Threat Level Posts, Report Number AUD­
                                         SI-13-:XX, April 2013
[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                      105 

                          SENSITIVE BUT UNCLASSIFIED

                        SENSITIVE BUT UNCLASSIFIED





          Audit of Department of State Compliance With Physical Security Standards at
          Selected High Threat Level Posts, Report Number AUD-SI-13-X.X, April 2013
[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                    106 

                        SENSITIVE BUT UNCLASSIFIED

                             SENSITIVE BUT UNCLASSIFIED





               Audit of Department of State Compliance With Physical Security Standards at
               Selected High Threat Level Posts, Report Number AUD-SI-13-XX, April2013

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                         107 

                             SENSITIVE BUT UNCLASSIFIED

                       SENSITIVE BUT UNCLASSIFIED





      SENSITIVE BUT UNCLASSIFIED

      Audit of Department of State Compliance with Physical Security Standards at
                           Selected High Threat Level Posts
                   OIG Report Number AUD-SI-13-XX, April2013

        Recommendations with which the Bureau of Diplomatic Security does not
                                          Concur
[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                   108 

                       SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED





                               SENSITIVE BUT UNCLASSIFIED
                                            -2-
[Redacted] (b) (5), [Redacted] (b) (7)(F)




                               SENSITIVE BUT UNCLASSIFIED




                                        109 

                            SENSITIVE BUT UNCLASSIFIED

   SENSITIVE BUT UNCLASSIFIED



                                                                  Appendix F




                                             United States Department of State

                                             Washington. D.C. 1 0520


                                                     APR 2 9 2013

SENSITIVE BUT UNCLASSIFIED
(UNCLASSIFIED when separated from attachment)


TO:         OIG - Mr. Harold W. Geisel

FROM:       OBOIRM - Jiirg F.. Hochuli   t
SUBJECT: Draft Report on Audit of Department of State Compliance With
         Physical Standards at Selected H igh Threat Level Posts

Th~ Bur~au of Overseas Buildings Operations (OBO) appr~ciates the
opporlunity to provide comments to the subject draft report.

Attached are OBO's written comments to recommendations 2, 3, 6, 7, 10,
ll , 12, and 17 which require OBO's action. The comments are in bold text
for ease of reference.


Attachments:

 1. Comments on the draft report.
 2. Maintenance Alert issued to post FMs.




                SRNSTTTVE BUT UNCLASSIFIED
           (UNCLASSIFIED whe::n sl:paratcd from attachment)




               110 

   SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




                          SENSITIVE BUT UNCLASSIFIED

                    OBO Comments on the OIG Draft Report on
           Audit of Department of State Compliance With Physical Security
                   Standards at Selected High Threat Level Posts.
[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                  111 

                      SENSITIVE BUT UNCLASSIFIED

                                SENSITIVE BUT UNCLASSIFIED


[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                            112 

                                SENSITIVE BUT UNCLASSIFIED

                         SENSITIVE BUT UNCLASSIFIED



[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                     113 

                         SENSITIVE BUT UNCLASSIFIED

                        SENSITIVE BUT UNCLASSIFIED




                            SENSITIVE BUT UNCLASSIFIED
[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                    114 

                        SENSITIVE BUT UNCLASSIFIED

                                 SENSITIVE BUT UNCLASSIFIED


[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                             115 

                                 SENSITIVE BUT UNCLASSIFIED

                               SENSITIVE BUT UNCLASSIFIED



[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                           116 

                               SENSITIVE BUT UNCLASSIFIED

                                SENSITIVE BUT UNCLASSIFIED



[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                            117 

                                SENSITIVE BUT UNCLASSIFIED

            SENSITIVE BUT UNCLASSIFIED


                                                                                                        Appendix G

                                                                             United States Department of State

                                                                             Washington, D.C 20520


CJ ,ASSIFICATION                                                             May 3, 20 13
UNCLASSIFIED



MEMO FOR OFFICE OF THE INSPECTOR GENERAL


             [Redacted] (b) (5), [Redacted] (b) (7)(F), [Redacted] (b) (6)
FROM:



SUBJECT: Reply to the Audit ofDepartment of State Compliance with Physical
         Security Standards at High Threat Level Posts

      [Redacted] (b) (5), [Redacted] (b) (7)(F) clears in draft this audit report with the

exception of recommendation #23. The issue raised is a broader issue for the
department and touches upon rightsizing and Chief of Mission authority.

      You may want to have a discussion with M/PRI and consider how that fits.
The bulk of the audit is DS/ OBO action- we defer to them.




                                                CLASSIFICATION
                                                 UNCLASSIFIED




                        118 

            SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED



Major Contributors to This Report

Regina Meade, Director
Division of Security and Intelligence
Office of Audits

Soraya Vega, Audit Manager
Division of Security and Intelligence
Office of Audits

Nina Lin, Senior Auditor
Division of Security and Intelligence
Office of Audits

Caryn White, Senior Auditor
Division of Security and Intelligence
Office of Audits

Alisha Chugh, Senior Auditor
Division of Security and Intelligence
Office of Audits

Sheila Cuevas, Management Analyst
Division of Security and Intelligence
Office of Audits

Joseph Hamrock, Management Analyst
Division of Security and Intelligence
Office of Audits

Craig Stafford II, Management Analyst
Division of Security and Intelligence
Office of Audits

Michael Boorstein, Senior Advisor
Division of Security and Intelligence
Office of Audits



                                     119
                         SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED 





SENSITIVE BUT UNCLASSIFIED 

SENSITIVE BUT UNCLASSIFIED 





 FRAUD, WASTE, ABUSE,

 OR MISMANAGEMENT

OF FEDERAL PROGRAMS 

   HURTS EVERYONE. 


          CONTACT THE 

  OFFICE OF INSPECTOR GENERAL

             HOTLINE

       TO REPORT ILLEGAL

    OR WASTEFUL ACTIVITIES: 



         202-647-3320 

         800-409-9926 

      oighotline@state.gov 

          oig.state.gov 


   Office of Inspector General

    U.S. Department of State 

         P.O. Box 9778 

     Arlington, VA 22219 





SENSITIVE BUT UNCLASSIFIED 

